No. 19-823
In The

Supreme Court of the United States
Susan Pearsall,
Petitioner
v.
Thomas C. Guernsey, DDS
Respondent

On Petition For Writ Of Certiorari
To The Third District Court of Appeals Of The State
Of Ohio

PETITION FOR REHEARING

Susan M. Pearsall
Pro Se
2447 Tiffin Ave. #139
Findlay, Ohio 45840
419-889-3564

TABLE OF CONTENTS
Page
TABLE OF CONTENTS......................................
i
TABLE OF CITED AUTHORITIES..................
m
PETITION FOR REHEARING...........................
1
STATEMENT OF THE CASE............................
1
REASONS FOR GRANTING THE PETITION......12
CONCLUSION
13
APPENDIX.....
Appendix A
Certificate of Petitioner Pro Se.App. 1
Appendix B
Motion to Enforce Settlement
Agreement, Case No. 2016 CV 00067
(February 27, 2018)
App. 3
Appendix C
Plaintiffs Response to Motion to
Enforce Settlement
App. 7
Appendix D
Plaintiffs Supplemental Response to
Motion to Enforce Settlement...App. 9
Appendix E
Reply Memorandum in Support of
Motion (under seal)................... App. 10
Appendix F
Decision and Order (Motion to
Enforce Settlement Agreement filed
by Defendant on February 27, 2018)
...................................................... App. 13
Appendix G
Memorandum in Opposition to
Plaintiffs Motion to Proceed to Trial
By Jury....................................... App. 20
Appendix H
Final Judgment Entry............ App. 22
Appendix I
Agreement and Order (Under
Seal)..................................... ...... App. 23
i

Appendix J

Motion Hearing (parts of transcript of
March 22, 2018)
App. 25

n

TABLE OF CITED AUTHORITIES
CASES
Callanan v. Powers, 199 N.Y. 268, 92 N.E. 747 (1910)
.....................................................................................12, 13
Septembertide Pub., B.B. v. Stein & Day, Inc. 884
F.2d 675, 678 (2d Circ. 1989)
............................... 13
Ulloa v. Universal Music and Video Distribution
Corp., 303 F.Supp.2d 409 - Dist. Court, SD New York
2004
13

STATUTES
28 U.S.C. § 1257.....................
U.S. Supreme Court Rule 44

m

1
1

PETITION FOR REHEARING OF AN ORDER
DENYING A WRIT OF CERTIORARI
Petitioner, Susan Pearsall, respectfully
submits the foregoing petition for rehearing of an
order denying a petition for a writ of certiorari,
pursuant to Supreme Court Rule 44. The date of the
order of denial is February 24, 2020. This petition for
rehearing is submitted by March 20, 2020, within 25
days after the order of denial, pursuant to Rule 44.

STATEMENT OF THE CASE
Petitioner-Plaintiff first filed a complaint
against Respondent-Defendant, dentist, Thomas C.
Guernsey, DDS, in Case No. 2014 CV 00525 (Record,
Complaint), however the case was dismissed without
prejudice for failure to include an affidavit of merit
(Record, Judgment).
Plaintiff later filed Case No. 2016 CV 00067,
this time brought against dentists Thomas C.
Guernsey, DDS, and additionally against Derik E.
Utz, DDS. (Record, Complaint). Before reaching trial,
in September of 2016, defendant Dr. Utz was
dismissed as a party to the case due to the statute of
limitations on time for filing a medical claim.
(Record, Judgment). However, the case against Dr.
Guernsey for counts of medical malpractice and
battery resulting in damages in excess of $25,000
remained. (Record, Complaint).
1

The case against Dr. Guernsey proceeded to
trial by jury on January 29, 2018. On January 30,
2018, the case was not fully presented to the jury
before a purported settlement was entered in the
record. (Record, Transcript Jan. 30, 2018). No
verdicts were rendered by the jury. The only parties
participating in offer or acceptance of the purported
settlement were the only remaining defendant, Dr.
Guernsey, and the plaintiff. (Record, Transcript Jan.
30, 2018). At that time the court required that the
time for negotiation on the settlement had ended at
that point in time. (Record, Transcript Jan. 30, 2018)
THE COURT: Miss Pearsall and Mr. Bonfiglio,
I asked you a few moments ago to come into
the courtroom, kkk I need to know whether you
have your case resolved, it is now or never, •kick
(Record, Transcript Jan. 30, 2018)
THE COURT: kick and I'm not going to make
them wait any more, either you have an
agreement or you don't. kkk
(Record, Transcript Jan. 30, 2018)
THE COURT: If you don't have it ready we're
going to start. kkk
The court required that the agreement was
read into the record at that time, even that it be read
into the record "exactly". (Record, Transcript Jan. 30,
2018). The court required that it would not wait on a
"written document".
2

THE COURT: irkrk So Miss Pearsall, I want you
to repeat to me exactly what you think the
agreement is because if it is we're going to put
it on the record here and I'm going to let the
jurors go home and go about their business.
I'm not going to wait for, I'm not going to wait
for a written document, either we put it on the
record or we continue our trial.
(Record, Transcript Jan. 30, 2018)
THE COURT: I want someone to read it into
the record exactly how it's going to be worded.
(Record, Transcript Jan. 30, 2018)
THE COURT: If you read it into the record
and you agree to it it's just as good MR. BONFIGLIO: Yep, that's fine.
THE COURT: - - as if it's written down and it's
enforceable and I will enforce it but I want to
know exactly what it is and I want Miss
Pearsall to read back to me what she believes
it is, because as she's unrepresented, I don't
want there to be any mistake or
misunderstanding as to what she's agreeing
to.
There was no provision that more terms would
be added later. (Record, Transcript Jan. 30, 2018).
At a later date, the defendant then served a
motion requesting the court to order the plaintiff to
sign an unseen document in a motion titled
3

"MOTION TO ENFORCE SETTLEMENT
AGREEMENT". (Record motion; and App. l). In his
motion the defendant requested merely that the
court order plaintiff to sign. Of note, the defendant's
motion did not yet request the court to give effect to
an unsigned, proposed contract by issuing the
proposed contract as a court order. Nor did the
motion cite any authority to force plaintiffs
signature.
On March 5, 2018, the court ordered the
matter set for hearing to take place on March 22,
2018. (Record, Order).
On March 13, 2018, plaintiff served her
response in opposition of the defendant's motion to
enforce (App. 5), and on March 15, 2018, plaintiff
served a supplement to her response (App. 7).
On March 22, 2018, (the day of hearing) the
defendant filed his reply (App. 9). A copy had also
been faxed to the plaintiff the day before. Of note, it
is in the defendant's reply the day before the hearing
that the defendant first requests that, as an
alternative to obtaining plaintiffs signature, the
court instead order the defendant's proposed
settlement agreement as a court order! that he first
cites authority which he believes permit courts to
write and construct settlement agreements and add
terms without the consent of the parties subject to
the terms! and that he first reveals a copy of the
proposed order that would adopt the defendant's
proposed "agreement" terms. No transcript of the
oral settlement agreement, nor any affidavits were
attached to his motion or reply.
4

At the hearing taking place on March 22,
2018, the defendant proceeded to seek, as alternative
to plaintiffs signature, a court order ordering the
terms, relying on the same case law contained in his
reply the day before which he believed allows the
court to effect an "agreement" by ordering it and
allows his proposed agreement to contain "additional
boilerplate and additional terms." (Record,
Transcript, March 22, 2018). At the hearing no
witnesses were called and no evidence was
considered. Specific citations of the transcript of the
oral agreement were not actually read during the
hearing, but the defendant had an uncertified copy
with him, copies of which were made at the close of
the hearing for the court to use in its review after the
hearing (Record, Transcript, March 22, 2018).
THE COURT:
So, Mr. Bonfiglio, as it is your motion let
me hear from you first. What brings us to
Court today?
MR. BONFIGLIO: We are here because she
has declined to sign a written release,
she
said that she was under no obligation to sign
anything, that the agreement was on the
record and that's when I filed the motion to
enforce settlement.
Basically what I'm looking for was a
signed release and if she doesn't want to sign
the release then I would ask the Court to sign
an order that contains the provisions I
proposed in the release.
5

Yesterday I sent the Court an e-mail
and Miss Pearsall an e-mail with the specific
language I was looking for, and I filed that
today under seal, I have the file-stamped copy
of what was provided yesterday.
THE COURT:
May I have one, please?
MR. BONFIGLIO: The release just contains
the standard release that is fashioned in every
case I've ever had. 'k'k'k I put it in my reply that
I sent yesterday case law that shows when
folks come in, put an agreement on the record
we then as a matter of course it's followed by a
release that contains additional boilerplate
and additional terms, and as long as they don't
conflict with the written statements, the
releases or closing documents are executed as
a matter of course. I would point out that this
has happened in my experience in this
jurisdiction and others every single time I've
settled a case. And, although, plaintiff is a pro
se litigant, as the Court well knows, when you
are permitted to proceed in a pro se fashion
you are nevertheless presumed to follow the
same rules, the same customs, the same orders
as any practicing attorney.
So my, I'm here today just to get a
signed release or an order from the Court that
is signed.
THE COURT:
Miss Pearsall?
At the hearing plaintiff argued that she is
prejudiced by the process having had less than 24
6

hours since receiving the defendant's reply. (Record,
March 22, 2018). The trial court proceeded.
Nonetheless, plaintiff contested the signing,
the ordering and the new language, and did not
concede to the correctness of the precedent. Plaintiff
argued that she does not agree to those terms,
therefore there's no agreement, no consent, no
meeting of minds and no valid contract; that
defendant attempts to gain terms that were absent
on January 30th including but not limited to
eliminating plaintiffs right to recovery against
persons other than Dr. Guernsey, including against
persons such as the Cincinnati Insurance Company
together with their past and present employees,
family members, agents, officers, partners, directors,
successors and predecessors and Dr. Utz! that the
court represented to plaintiff that the settlement was
exactly what it is on the record; that the defendant's
not entitled; that modification requires the consent of
both parties; that the court represented to the
plaintiff it doesn't have to be in writing! that the
Court ordering the defendant's proposed judgment
entry cannot create a valid contact; and that the
defendant's motion should be denied because it
cannot be upheld. (Record, Transcript, March 22,
2018).
Furthermore, on March 22, 2018, the
defendant objected to a release limited to the terms
entered on the record January 30, 2018. (Record,
Transcript, March 22, 2018):

7

MR. BONFIGLIO:
And I would, again,
point out that the terms that are put on the
record aren't --1, I would object to a release
that just talks about just those terms and
nothing else because that's, that's not the
practice.
And again:
MR. BONFIGLIO: I could make a copy of this.
But, again, my point is I would object to being
bound by just the specific things that are listed
on here, but I have the copy.
Despite the fact that the defendant was bound
as of January 30, 2018 to pay plaintiff the settlement
money, counsel for the defendant went on to state on
the record on March 22, 2018 that he would not pay
the settlement money without a release:
'k'k'k
THE COURT:
Mr. Bonfiglio, you, you
tell me if I'm wrong in this regard, you won't
pay over the money, the settlement money
without a release, will you?
MR. BONFIGLIO: That's correct, Your Honor.

On April 5, 2018, the court filed its
"DECISION AND ORDER (Motion to Enforce
Settlement Agreement filed by Defendant on
February 27, 2018)". (Record, Decision and Order)
The decision directs plaintiff to sign the "requested
release" within thirty (30) days. Furthermore, it
8

states that in the event that plaintiff fails to sign the
release within the thirty (30) days, then "she will be
deemed to have forfeited her right to the award" and
the court will sign an order "reflecting the agreement
and order that this case will be dismissed with
prejudice." In other words the court will order the
plaintiff bound by the "agreement", but not require
the defendant to pay her in exchange.
On April 30, 2018, plaintiff motioned to have
the original case proceed to trial by jury. (Record,
Motion to Proceed to Trial By Jury).
The defendant filed his opposition to the case
proceeding to trial by jury on May, 1, 2018.
On May 14, 2018 the court entered two
judgments as two separate documents. FINAL
JUDGMENT ENTRY and AGREEMENT AND
ORDER (Under Seal). Plaintiffs motion to proceed to
trial by jury can be said to have been passed upon
silently by the court's May 14, 2018 judgment.
On June 11, 2018, plaintiff appealed the trial
court's final judgments "FINAL JUDGMENT
ENTRY" and "AGREEMENT AND ORDER (Under
Seal)" both entered separately on May 14, 2018, as
well as the preceding "DECISION AND ORDER"
filed by the trial court on April 5, 2018, to the Third
District Court of Appeals in App. Case No. 05-18-14.
(Record, Notice of Appeal).
Plaintiff proceeded on the following
assignment of error (Record, Brief of Appellant):
"The trial court erred in determining that an
enforceable contract exists."
9

And requested the following relief (Record, Brief of
Appellant):
"CONCLUSION
Appellant motions the trial court's
orders from May 14, 2018, being the "FINAL
JUDGMENT ENTRY" AND "AGREEMENT
AND ORDER (Under Seal)" reversed and the
action proceed to trial by jury."
The appellate court ruled issuing a judgment
on January 14, 2019, affirming in part and reversing
in part. (Record, Judgment).
On February 22, 2019, the trial court entered
on remand an amended order pursuant to the
appellate court's judgment. (Record, Amended
Order). In said order the trial court, adds an
obligation to enforce on the plaintiff that she "must
acknowledge receipt of the funds in writing". (Record,
Amended Order). This term was never submitted to
the court by either of the parties as part of the
purported agreement. The order did not contain most
of the language and provisions the defendant
wanted.
On February 28, 2019, plaintiff timely filed a
notice of appeal of the appellate court judgment in
the Supreme Court of Ohio proceeding on the
following Propositions of Law (Record, Memorandum
In Support of Jurisdiction) (except Proposition of
Law No. Ill not shown here):

10

Proposition of Law No. L A purported
settlement should not be enforced and parties
should proceed to trial where the defendant
pleads that he objects to the original terms
that were placed on the record and pleads that
he will not pay plaintiff the settlement money
owed unless plaintiff accepts a new
settlement, and where plaintiff exercises right
not to accept new settlement, and plaintiff
pleads for trial by jury for original right to
remedy.
Proposition of Law No. IP A settlement should
not be enforced where essential terms are
disputed.
In her motion for reconsideration (Record,
motion) plaintiff-appellant cites authority showing
that after the defendant announced a refusal to pay
plaintiff under the terms of the original agreement
(Record, Transcript March 22, 2018), plaintiff had
the right to rescind the settlement and have the case
go back to trial by jury at the time when she
motioned the trial court to have the case proceed to
trial by jury prior to the dismissal of her case. She
quoted Berry v. Guernsey Bldg. & Loan Co., 32 Ohio
N.P.(N.S.) 233, 240 (1934) where it holds:
"When one of the parties violates the contract
or refused to be bound thereby the other party
has a right to rescind. There is abundance of
11

authority to this effect not necessary for the
court to refer thereto. ***!!
On March 14, 2019, the defendant filed an
appeal (Case No 05-19-08) in the Third District
Court of Appeals, Ohio (Record, Notice of Appeal),
claiming that the trial court abused its discretion
when it did not include the terms and conditions
contained in its Agreement and Order (Record, Brief)
in the Amended Order issued on remand. PlaintiffAppellee opposed. Both parties arguments were
premised on the fact that the Agreement and Order,
which the appellate court had just reversed, was no
longer in effect. However, the Appellate court
entered a judgment affirming, but theorized that the
Agreement and Order (May 14, 2018) was still in
effect.
In the same case Plaintiff-Appellee / CrossAppellant also cross-appealed assigning as error the
trial court's order that she must acknowledge receipt
of the funds in writing. (Record, Brief). The appellate
court upheld it because it opined that it was not a
"material" change to the agreement. (Record,
Judgment).
REASONS FOR GRANTING THE PETITION
As a general rule, a party is permitted to
rescind a contract on account of the other party's
repudiation of the contract or any essential part of it.
Callanan v. Powers, 199 N.Y. 268, 92 N.E. 747
(1910). The defendant's refusal to pay the settlement
12

money and the court's ordering of the forfeiture of
plaintiffs award was a repudiation of an essential
term to the contract. 'Rescission is permitted if the
breach is "material and willful, or, if not willful, so
substantial and fundamental as to strongly tend to
defeat the object of the parties making the contract.'"
Ulloa v. Universal Music and Video Distribution
Corp., 303 F.Supp.2d 409 - Dist. Court, SD New York
2004 citing Septembertide Pub., B.B. v. Stein & Day,
Inc. 884 F.2d 675, 678 (2d Circ. 1989) citing Callanan
v. Powers, 199 N.Y. 268, 284, 92 N.E. 747 (1910).
Furthermore, the trial court continues to
arbitrarily enforce additional terms and additional
obligations upon the plaintiff and without due
process (Record: Agreement and Order! and
Amended Order). Due process of law protects against
arbitrary rulings.

CONCLUSION
The specific relief the party seeks is that the
settlement and dismissal of action ordered are both
reversed and vacated, and that the cause is
remanded to the trial court in order that defendant
Thomas C. Guernsey, DDS will be tried by a jury in
the action against him for counts of medical
malpractice and battery.
For the reasons set forth above, a Writ of
Certiorari should be granted.
13

Respectfully submitted,

Susan M. Pearsall
Pro Se
2447 Tiffin Ave. #139
Findlay, OH 45840
419-889-3564
March 19, 2020

14

Appendix A

Certificate of Petitioner Pro Se
I hereby certify that this petition for rehearing
is presented in good faith and not for delay, and that
it is restricted to grounds of intervening
circumstances of a substantial or controlling effect or
to other substantial grounds not previously
presented as specified in Rule 44.2.

Susan M. Pearsall
Pro Se
2447 Tiffin Ave. #139
Findlay, OH 45840
419-889-3564

App. 1

App. 2

Appendix B

IN THE COMMON PLEAS COURT OF HANCOCK
COUNTY, OHIO
SUSAN PEARSALL, Plaintiff,
v.
THOMAS C. GUERSNEY, DDS,
Defendant.
Case No. 2016 CV 00067
Judge Reginald J. Routson
MOTION TO ENFORCE SETTLEMENT
AGREEMENT
Date filed: February 27, 2018

Defendant herein, by and through counsel,
respectfully requests that the court order plaintiff to
sign an appropriate r.elease and dismissal entry to
formalize and conclude the settlement agreement
reached herein on January 30, 2018 and to formally
conclude this litigation. The reasons and authorities
App. 3

in support of this motion are stated in the attached
memorandum.
Respectfully submitted,
s/ Paul R. Bonfisrlio
Paul R. Bonfiglio
Attorney for Defendant
Thomas C. Guernsey, DDS
MEMORANDUM
As this court is well aware, the parties during
the second day of trial herein reached an agreement
to settle all claims. The court confirmed on the record
the parties' agreement to resolve all claims, and read
into the record the parties' agreements respecting
two specific provisions which had previously been in
dispute.
It is the standard, usual and customary
practice among litigants - -including attorneys
practicing in the Hancock County Court of Common
Pleas-’that settlement agreements are commonly
and routinely reached with a verbal understanding,
(or sometimes with a brief memorandum), and then
later memorialized with a formal release signed by
the plaintiff and a formal dismissal entry signed by
all parties and the court, with payment then
effectuated on receipt of those documents. Even
though plaintiff is acting in a pro se capacity, those
usual and customary procedures are absolutely
applicable to her.
App. 4

Counsel has repeatedly asked plaintiff for
times and dates to meet, review, sign and exchange
settlement documents without receiving any
response whatsoever from the plaintiff. Ultimately
plaintiff told the undersigned that she did not want
to meet with him, would not sign a release, and was
not required to do so because "everything was on the
record".
The parties' agreement to settle the case was
indeed placed on the record and two specific clauses
were likewise read into the record given that the
plaintiff had previously indicated she would not
agree to those provisions. However, there is nothing
on the record advising that the usual and standard
custom of effecting a written release with all
settlement terms and provisions would not still
transpire,' in fact, the court expressly advised that it
assumed the parties would work out payment and
"terms as to when" and that some paperwork would
transpire. Moreover, throughout settlement
negotiations plaintiff was repeatedly advised that
any settlement would include a written release.
Accordingly, counsel requests that this court
order plaintiff to sign and exchange a written release
and dismissal entry to formalize and conclude the
settlement agreement in this case and to formally
conclude this litigation.
Respectfully submitted,
s/ Paul R. Bonfiglio
Paul R. Bonfiglio
App. 5

Attorney for Defendant
Thomas C. Guernsey, DDS
CERTIFICATION
This is to certify that a copy of the foregoing Motion
to Enforce and Conclude Settlement was sent by
email and by ordinary U.S. mail delivery this 27th
day of February, 2018, to Susan Pearsall, 2447 Tiffin
Avenue, #139, Findlay, Ohio 45840, PlaintiffPro Se.
Respectfully submitted,
s/ Paul R. Bonfiglio
Paul R. Bonfiglio
Attorney for Defendant
Thomas C. Guernsey, DDS

App. 6

Appendix C

IN THE COURT OF COMMON PLEAS OF
HANCOCK COUNTY, OHIO
Susan M. Pearsall
Plaintiff,
VS.
Thomas C. Guernsey, DDS
Defendant.
Case No. 2016 CV 00067
PLAINTIFF'S RESPONSE TO MOTION TO
ENFORCE SETTLEMENT
Date filed: March 15, 2018

The defendant fails to show a duty of the
plaintiff to sign anything.
Respectfully submitted,
s/ Susan M. Pearsall
Susan M. Pearsall
2447 Tiffin Ave. #139
Findlay, OH 45840
App. 7

Plaintiff
CERTIFICATE OF SERVICE
This is to certify that a true copy of the
foregoing PLAINTIFF'S RESPONSE TO MOTION
TO ENFORCE SETTLEMENT was sent by mail on
this 13th day of March, 2017, to Paul R. Bonfiglio,
attorney for the defendant, 300 Madison Avenue,
Suite 1406, Toledo, OH 43604.
s/ Susan M. Pearsall
Susan M. Pearsall
2447 Tiffin Ave. #139
Findlay, OH 45840
Plaintiff

App. 8

Appendix D

IN THE COURT OF COMMON PLEAS OF
HANCOCK COUNTY, OHIO
Susan M. Pearsall
Plaintiff,
VS.
Thomas C. Guernsey, DDS
Defendant.
Case No. 2016 CV 00067
PLAINTIFF'S SUPPLEMENTAL RESPONSE TO
MOTION TO ENFORCE SETTLEMENT
Date filed: March 15, 2018

The defendant still has not shown the
document to the plaintiff that he requests her to
sign.
s/ Susan M. Pearsall
Susan M. Pearsall
2447 Tiffin Ave. #139
Findlay, OH 45840
Plaintiff
App. 9

Appendix E

IN THE COMMON PLEAS COURT OF HANCOCK
COUNTY, OHIO
SUSAN PEARSALL, Plaintiff,
v.
THOMAS C. GUERSNEY, DDS,
Defendant.
Case No. 2016 CV 00067
Judge Reginald J. Routson
REPLY MEMORANDUM IN SUPPORT OF
MOTION (under seal)
Date filed: March 22, 2018

Plaintiff believes she is not obligated to
execute or sign any type of document. She is wrong.
The usual and customary practice of confirming an
oral agreement on the record with a written
document applies to her as it does to any litigant
practicing in this court. Since she has declined to do
so, however, defendant asks the court to sign a
App. 10

judgment entry that embodies and effectuates the
agreements of the parties.
Where one party refuses to sign a written
agreement, the court is authorized to execute an
order that embodies a written agreement between
the parties. A court's order in this context will
routinely include provisions in addition to those
recounted on the record where those provisions do
not conflict with the oral agreements, are of the type
that are included in a standard release, or are simply
non-essential terms that are needed to effectuate the
agreement. See Murravs. Farrauto, 85 N.E. 3d 1231,
2017-Ohio-842! Reed Elsevier vs. Carter,
Montgomery Co. No. 27483, 2017-Ohkr7513.
Accordingly, defendant requests the court sign
a judgment entry thal embodies the agreements
concluding this claim. A proposed entry is attached.
Respectfully submitted.
s/ Paul R. Bonfiglio
Paul R. Bonfiglio
Attorney for Defendant
Thomas C. Guernsey, DDS
CERTIFICATION
This is to certify that a copy of the foregoing
Reply Memorandum in Support of Motion was
delivered this 22nd day of March, 2018, to Susan
Pearsall, 2447 Tiffin Avenue, #139, Findlay, Ohio
45840, PlaintiffPro Se.
App. 11

Respectfully submitted,
s/ Paul R. Bonfiglio
Paul R. Bonfiglio

App. 12

Appendix F

IN THE COMMON PLEAS COURT OF HANCOCK
COUNTY, OHIO
SUSAN PEARSALL, Plaintiff,
vs.
THOMAS C. GUERSNEY, DDS, et al
Defendants.
Case No. 2016 CV 67
DECISION AND ORDER (Motion to Enforce
Settlement Agreement filed by Defendant on
February 27, 2018)
Date filed: April 5, 2018

INTRODUCTION
This matter comes on for consideration of a
Motion to Enforce Settlement Agreement filed by
Defendant Thomas C. Guernsey, DDS, by and
through counsel, on February 27, 2018. This matter
App. 13

was set for an oral argument/hearing on March 22,
2018. On March 15, 2018 Plaintiff filed an Initial
Response to the Motion to Enforce Settlement and a
supplement. On March 22, 2018, Defendant filed a
reply appended to a reply memorandum filed under
seal. Finally, on March 23, 2018, Plaintiff filed a
response to Defendant's reply.
PROCEDURAL BACKGROUND
The most recent version of this dispute
commenced on February 18, 2016, when Plaintiff,
representing herself, refiled a professional negligence
claim against Defendant and Derik Utz, DDS as a
second defendant. On September 26, 2016, Utz was
dismissed as a defendant. Eventually, the case
proceeded to trial on January 29, 2018. At
approximately noon on January 30, 2018 the parties
notified the Court that they had reached an
agreement. The Court recessed the trial and ordered
the parties to appear in open court without the
presence of the jury to place this agreement on the
record. The terms and conditions of the settlement
were read into the record. Particulars of the proposal
were discussed in some detail including ***. The
Court on the record indicated to the parties that it
was assumed that a "writing" would be prepared.
Thereafter the jury was excused.
At the latest hearing, the Court learned from
counsel for the Defendant that that Plaintiff has
refused to execute any written document outlining
the terms of settlement including ***. In response,
App. 14

Plaintiff contends that she is not required to sign any
document as the particular issue of a release was not
discussed. The crux of her argument is that she does
not believe that she should be required to sign any
documents or accept other terms and conditions of
the agreement not fully identified at the time of
settlement.
Defendant contends that a written agreement
was contemplated by the parties. Counsel for the
defendant conceded that some of the terms and
conditions, although not specifically mentioned, are
considered usual and customary especially in light of
the substantial payment to be provided to Plaintiff
and must be included in the resolution of the case.
CONCLUSIONS OF LAW
Writing/Release
Plaintiff claims that she is not required to sign
a release of claims or other documents relating to the
compromise. A review of the settlement conference
held on the record reveals the issue of a writing was
addressed. It is also true that a written release
provides important protection to both sides and adds
finality to the proceedings. Although not discussed in
great detail, it is entirely reasonable for Defendant to
expect that a release be part of the bargain. This
portion of Plaintiffs argument is rejected.
Terms and Conditions Not Explicitly Stated
App. 15

Plaintiff also contends that the proposed
release contains conditions not specifically discussed
in open court. Defendant argues that certain
provisions as he has outlined are routine in such
matters and do not have to be specifically mentioned
so long as such terminology identifies non-essential
terms and are necessary to effectuate their
agreement.
Without dispute, the parties intended to be
bound to the settlement agreement. The basic
economic terms of the settlement agreement were
discussed on the record. The remainder of the
agreement simply contains the "less essential terms"
necessary to effectuate the conclusion of this case.
There are no inconsistencies between the parties'
agreement and the settlement entry or release of
claims. Stated differently, "it is not a 'new'
agreement but, rather, it is a written agreement that
fully and accurately reflects the parties' agreement,"
Murra v. Farrauto, 10th Dist. No. 16AP-347, 2017Ohio-842.
In Murra, the court was faced with a dispute
similar to this one. There the court found that the
proposed settlement agreement terms "[do] not
conflict with the terms read into the record" and
"provide additional details pertinent to the how,
when and where the payments are to be made, which
terms serve to avoid any confusion that may arise
between the parties . . ." Id. at f 6. The trial court
also found that "the terms related to the release of
claims likewise do not conflict with the terms read
App. 16

into the record, are of a boiler-plate nature and apply
equally to both sides." Id.
Likewise here, the release proposed by
Defendant which Plaintiff has refused to sign does
not conflict with the terms read into the record. The
requested language appears reasonable and is
necessary to effectuate the agreement and protect
both parties. Plaintiff could not point to, and this
Court cannot find, how she would be prejudiced by
this agreement. Accordingly, Plaintiffs arguments
are rejected. The agreement as proposed by the
Defendant in the draft entry filed under seal is a fair
representation the settlement reached by the parties
on January 30, 2018.
CONCLUSION
Based upon the foregoing analysis,
Defendants' Motion to Enforce Settlement is granted.
Consequently, the Court orders as follows:
1) Within thirty (30) days, Plaintiff is
directed to appear at counsel's office at
a date and time agreeable to both
parties, and sign the requested release.
2) If the release is properly executed
counsel is directed to tender the check
in the agreed upon amount to her and
file a dismissal entry.
3) If Plaintiff fails to appear in counsel's
office by the deadline and/or refuses to
sign the release the Court shall sign an
order reflecting the agreement and
order that this case will be dismissed
App. 17

with prejudice. (See Agreement and
Order filed under seal by Defendant on
March 23, 2018.) Defendant's counsel to
retain the settlement check in the
agreed amount for a period of thirty (30)
days.
4) If Plaintiff fails to sign the release
and/or fails to request the settlement
check within the thirty (30) day time
period mentioned above, she will be
deemed to have forfeited her right to the
award. In either circumstance this case
will be dismissed with prejudice.
5) Costs to be paid by Defendant.
All until further Order of the Court.
s/ Reginald J. Routson
REGINALD J. ROUTSON, JUDGE
CERTIFICATE OF SERVICE
The undersigned does hereby certify that on
the 5th day of April, 2018, a time-stamped copy of
the foregoing was delivered to the following by
ordinary U.S. Mail:
SUSAN M. PEARSALL
2447 TIFFIN AVE., #139
FINDLAY, OH 45840
PAUL R. BONFIGLIO
App. 18

300 MADISON AVE
SUITE 1406
TOLEDO, OH 43604
s/ Misty A. Montaine
MISTY A. MONTAINE, Judicial Assistant

App. 19

Appendix G

IN THE COMMON PLEAS COURT OF HANCOCK
COUNTY, OHIO
SUSAN PEARSALL, Plaintiff,
v.
THOMAS C. GUERSNEY, DDS,
Defendant.
Case No. 2016 CV 00067
Judge Reginald J. Routson
MEMORANDUM IN OPPOSITION TO
PLAINTIFF'S MOTION TO PROCEED TO TRIAL
BY JURY
Date filed: May 1, 2018

Plaintiff here in has filed a "Motion to Proceed
to Trial by Jury".
Because all issues pertaining to plaintiffs
most recent submission have already been heard,
argued and adjudicated by this court, plaintiffs
motion to proceed to trial by jury should be denied.
Respectfully submitted,
App. 20

s/ Paul R. Bonfiglio
Paul R. Bonfiglio
Attorney for Defendant
Thomas C. Guernsey, DDS
CERTIFICATION
This is to certify that a copy of the foregoing
Memorandum in Opposition to Plaintiffs Motion to
Proceed to Trial by Jury was emailed and mailed this
1st day of May, 2018, to Susan Pearsall, 2447 Tiffin
Avenue, #139, Findlay, Ohio 45840, PlaintiffPro Se.
Respectfully submitted,
s/ Paul R. Bonfiglio
Paul R. Bonfiglio

App. 21

Appendix H

IN THE COMMON PLEAS COURT OF HANCOCK
COUNTY, OHIO
SUSAN PEARSALL, Plaintiff,
vs.
THOMAS C, GUERSNEY, DDS, et al
Defendants.
Case No. 2016 CV 00067
FINAL JUDGMENT ENTRY
Date entered: May 14, 2018

This action is hereby dismissed in its entirety,
with prejudice, at the cost of the defendant.
14 Mav 2018
Date
s/ Reginald J. Routson
JUDGE
App. 22

Appendix I

IN THE COMMON PLEAS COURT OF HANCOCK
COUNTY, OHIO
SUSAN PEARSALL, Plaintiff,
vs.
THOMAS C. GUERSNEY, DDS, et al
Defendants.
Case No. 2016 CV 00067
AGREEMENT AND ORDER (Under Seal)
Date entered^ May 14, 2018

•k'k'k'k'k'k'k

Terms and Conditions
The defendants as consideration for the
agreements expressed herein shall pay plaintiff the
sum of***. This amount shall be paid at the time
this order is submitted to the court for signature. "kick
In accordance with this court's April 5, 2018
Decision and Order, plaintiff will forfeit her right to
3.

App. 23

this payment if she fails to sign a written release
proposed by the defendant within 30 days of this
court's order dismissing the case with prejudice.
4.
This agreement Jc’kic’k
5.
In consideration of rkicic in this Agreement, 'k'k'k'k
It is so ordered.
14 Mav 2018
Date
s/ Reginald J. Routson
JUDGE

i

App. 24

Appendix J

IN THE COMMON PLEAS COURT OF HANCOCK
COUNTY, OHIO
SUSAN PEARSALL, Plaintiff,
vs.
THOMAS C. GUERSNEY, DDS, Defendant.
Case No. 2016 CV 00067
MOTION HEARING
(parts of the transcript of March 22, 2018)
Date: March 22, 2018

APPEARANCES:
ON BEHALF OF THE PLAINTIFF:
By: SUSAN M. PEARSALL - pro se
ON BEHALF OF THE DEFENDANT:
By: PAUL R. BONFIGLIO
App. 25

'Je'k'Jc'krk'k'k'k'kie'krk'k'kie

THE COURT:
She did raise one thing, Mr.
Bonfiglio, and I don't always see the releases, but,
but Miss Pearsall did point to me something I would
have to ask about and that is why would she be, she
would be giving up any claims against Cincinnati
Insurance Company?
MR. BONFIGLIO: I put that in there, they're the
ones that issued the check.
THE COURT:
But they weren't a party to the
lawsuit.
MR. BONFIGLIO: No, they weren't a party to the
lawsuit.
THE COURT:
I certainly am not suggesting
anything, nor do I want or need any more litigation,
but theoretically couldn't she have a claim?
MR. BONFIGLIO: Theoretically, Judge, that's a -THE COURT:
Only theoretically, I mean people
sue insurance companies on occasion.
MR. BONFIGLIO: I don't know what her claim
would be.
THE COURT:
She wouldn't have privity with an
appeal, it would be like Dr. Guernsey perhaps.
MR. BONFIGLIO: And I can't begin to speculate
about what claims may or may not occur to her later,
that's one I can't see a claim against them.
THE COURT:
So why are they included?
MR. BONFIGLIO: Because I can't anticipate her.
This is a release, I wanted to take care of everything.
If there's a specific problem with this release she can
talk to me about it.
THE COURT:
I just, I just asked that question.
App. 26

N

/

MR. BONFIGLIO: Sure.
rk'k'k

i

App. 27

